Clermont County Prosecuting Attorney
Mark J. Tekulve
76 S. Riverside Drive, 2nd Floor
Batavia, Ohio 45103
Common Pleas Division: (513)732-7313
Fax: (513)732-7592

June 14, 2021
Danny Bickell
Office of the Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Application to Extend Time to Respond to Petition in
Frederick M. Weber v. Ohio,
Case No. 20-1640

Dear Mr. Bickell:
The State of Ohio, through the Clermont County Prosecutor, pursuant to Rule 30.4,
respectfully requests a 30-day extension of time in which to respond to the petition for writ of
certiorari. This extension would move the response date from Thursday, June 24, 2021, to
Monday, July 26, 2021.
Counsel seeks this extension because of a heavy caseload. This brief delay will not
prejudice any party.
Thank you in advance for your consideration of this request.
Respectfully yours,
Mark J. Tekulve
Clermont County Prosecutor
/s/ G. Ernie Ramos
G. Ernie Ramos
Assistant Prosecuting Attorney
cc:

Stephen Palmer, Yavitch & Palmer Co., L.P.A., Petitioner’s Counsel

